                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                    .... OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: Allll0075                                                            c=!agelOfl



                  NSF OIG received an allegation ofplagiarism in three proposals l by aPI. 2 We contacted the
          PI about the alleged plagiarism, and she acknowledged that the copied text was not appropriately
          cited, although she noted that her proposals otherwise included references. In this case, with the
          small amount of copied text, and the PI's general pattern of citing sources, we deteImined the PI's
          act does not rise to the level ofresearch misconduct. Thus, we sent the PI a letter reminding her to
          carefully and fully cite all soUrce material. Accordingly, this case is closed.




NSF 01G Fonn 2 (11102)
